Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 5/7/2021 deponent caused to be served 3 copy(s) of the within
Petition for Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Overnight Delivery
Leigha Amy Simonton
Assistant United States Attorney
United States Attorney's Office
for the Northern District of Texas
Attorneys for Respondent
1100 Commerce Street, Room 300
Dallas, Texas 75242
214-659-8802

Sworn to me this

Case Name: Michael Ryan Mitchan v. USA

Friday, May 7, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Docket/Case No:
Index:

